                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




          An allegation was received that an instrumentation proposal' submitted to NSF contained a
          figure that was inappro~riatelyreferenced. However, the figure caption contains a citation to the
          individual researchers in whose laboratory the image was ~ b t a i n e d .We
                                                                                    ~ established that these
          researchers collaborate with an individual3 listed within the proposal as a potential user of the
          instrumentation, and that this user asked for and was provided the Figure from the researchers
          cited. There is therefore no support for the allegation of an inappropriate reference for the figure.

          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
